REVIEW OF THE EFFECTIVENESS OF THE
        GSA E-GOV TRAVEL
   PROGRAM MANAGEMENT OFFICE
 REPORT NUMBER A050178/F/A/V06002

          MARCH 6, 2006
Date:          March 6, 2006

Reply to
Attn of:       Carolyn Presley-Doss
               Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:       Review of the Effectiveness of the GSA E-Gov Travel Program Management Office
               Report Number A050178/F/A/V06002

To:            G. Martin Wagner
               Acting Commissioner, Federal Supply Service (F)

Background

The President’s Management Agenda (PMA) focuses on improving management within five areas of
the Federal government, one of which is Expanded Electronic Government (E-Gov). E-Gov Travel,
one of the 25 E-Gov initiatives, was launched in April 2002 to reengineer the Federal government’s
travel process to realize significant cost savings, efficiencies, and increased service. The initiative
promises a government-wide travel transformation that will fundamentally revolutionize the way the
Federal government manages travel.

Over the years, agencies have developed numerous expensive in-house travel systems that have
inconsistent, redundant, and labor-intensive processes and procedures. These systems are slow,
fragmented, and expensive to maintain, with varying levels of compliance with federal requirements
and regulations. The goal of the E-Gov Travel Initiative (previously called the eTravel Initiative) is to
replace the existing stove-piped travel management systems within agencies and provide a
government-wide web-based service that standardizes, automates, and consolidates the Federal
government’s travel process. The initiative is a collaborative [E-Gov Travel Program Management
Office and customer agencies] program designed to improve cost effectiveness and customer
satisfaction while leveraging administrative, financial and information technology best practices.
Agencies were advised to view the E-Gov Travel Initiative as an investment in change management to
encourage a cultural shift toward using a common, end-to-end travel solution. General Services
Administration (GSA) was designated Managing Partner for the initiative and in March 2002, the E-
Gov Travel Program Management Office (PMO) was established within GSA to centrally manage the
initiative and its travel process reengineering efforts. The PMO was also tasked with facilitating
knowledge sharing and best practice exchange among the agencies in support of their individual
implementation efforts. GSA is subject to oversight from the Office of Management and Budget
(OMB), portfolio manager for the E-Gov Travel Initiative. External communication and decision-
making channels for the initiative incorporate direct consultation with OMB.

In November 2003, the PMO awarded contracts to CW Government Travel Inc (CWGT), Electronic
Data Systems Corporation (EDS), and Northrop Grumman Mission Systems (NGMS) to provide an E-
Gov Travel Service (ETS). A January 2004 amendment to the Federal Travel Regulation (FTR)
required agencies to submit an ETS migration plan to the PMO by March 31, 2004, award a task order
to an ETS vendor by December 2004, and reach full deployment by September 30, 2006. As of
September 2005, 23 agencies have signed task orders with ETS vendors and seven agencies have
begun using ETS. As stated in the E-Gov Travel Initiative business case as of September 2005,
funding for the PMO has been provided both through the GSA Federal Supply Service’s General
Supply Fund and the GSA Industrial Funding Fee (IFF), with the expectation that the PMO will be
entirely self-sustaining by the end of FY07 via the IFF.

Objective, Scope, and Methodology

Our objectives were to address the following questions:

How is GSA providing adequate oversight and management over the E-Gov Travel Program?
   o Is GSA adequately assisting agencies to accomplish established milestones and timeframes?
   o Are risks identified and mitigation strategies implemented?
   o Is GSA meeting its E-Gov Travel Program performance measures?

To accomplish our audit objectives, we reviewed relevant Federal Travel Regulations and GSA
Orders; eTravel Project Charter; E-Gov Travel Initiative business case obtained from the Electronic
Capital Planning and Investment Control application as of September 2005; applicable President’s
Management Agenda information; templates, guidance, and tools developed by the PMO to assist
customer agencies; E-Gov Travel Initiative performance measure data; July 2005 and October 2005
issue tracking logs; voucher tracking data maintained by the PMO; Semi-Annual Performance
Reviews covering the period December 2004 to June 2005 for each ETS vendor; and ETS Vendor
User Group and eTravel Management Advisory Board meeting minutes. Our assessment was limited
to the 24 Business Reference Model (BRM) agencies participating in the E-Gov Travel Initiative. See
Appendix A-1 for a list of the 24 BRM agencies.

Additionally, we judgmentally selected a sample of five BRM agencies to review in detail, ensuring that
each ETS vendor and PMO Customer Service Representative (CSR) was represented in the sample
and that agencies with varying sizes of travel spending budgets were included. We conducted
interviews with the CSR assigned to each customer agency in our sample to discuss deployment
status, risks and obstacles to the agency’s deployment schedule, and the PMO’s role in mitigating the
impact of delays. For each agency in our sample, we obtained ETS migration schedules and plans
and Memorandums of Understanding (MOU) with associated project schedule and agency voucher
commitment attachments.

Our review was conducted within GSA’s E-Gov Travel Program Management Office and also included
customer survey interviews with GSA Office of the Chief Financial Officer staff responsible for
implementing E-Gov Travel for GSA. Audit work was performed between May 2005 and November
2005 in accordance with generally accepted government auditing standards.

Results of Review

The E-Gov Travel Program Management Office has developed and implemented several effective
management practices to provide adequate oversight over the E-Gov Travel Initiative and support
agencies in transitioning to ETS. Having a CSR dedicated to specific agencies to serve as a
customer service focal point has enabled efficient communication with agencies. The PMO created
ETS Vendor User Groups to facilitate discussion between ETS vendors, customer agencies, and the
PMO about common requirements and issues affecting agencies. An ETS Vendor User Group
website was developed to give agencies centralized access to E-Gov Travel information, essential
documents, and lessons learned. Additionally, documentation such as an agency communications
plan template, ETS pricing and ordering guides, and agency budget templates were prepared by the
PMO to aid agencies in their transition to ETS.




                                                  2
Although the PMO has achieved some success in their oversight and management of the E-Gov
Travel Initiative, our review disclosed that cost, schedule, and performance risks exist. The PMO has
faced challenges in supporting agencies to meet established milestones and timeframes, delaying the
accomplishment of the President’s Management Agenda goals. Many agencies have experienced
significant deployment schedule slippage, resulting in IFF revenue shortfalls and the inability to meet
E-Gov Travel Initiative performance measures. Various factors affecting the ability of ETS vendors
and agencies to remain on schedule have impacted the PMO’s effectiveness in managing the
initiative. In order for the PMO to successfully provide adequate management and oversight over the
E-Gov Travel Initiative, realistic IFF revenue estimates with a contingency plan to address revenue
shortfalls, better estimation and substantiation of deployment timeframes, and more effective issue
resolution are needed, thereby helping to mitigate cost, schedule, and performance risks.

Cost

The E-Gov Travel Initiative has experienced significant shortfalls in FY05 Industrial Funding Fee
revenues and is projecting a similar outcome in FY06. If current trends continue, the PMO will not
meet its expectation of achieving a self-sustained level of operation by the end of FY07. As a result,
funding risks exist and additional funding may be needed.

The PMO is funded partially through the IFF revenues generated by every travel voucher processed
through ETS. For FY05, the number of vouchers processed through ETS was considerably less than
originally planned. The impact of deployment delays on ETS usage rates is twofold - the number of
BRM agencies currently using ETS is almost half of what was expected and those agencies that are
actually using the system are not meeting their anticipated voucher levels. Based on our review of the
PMO’s voucher tracking data, the forecasted FY05 voucher levels for the five agencies in our sample
totaled over 50,000 while actual vouchers processed for our sample agencies totaled fewer than
16,000. Fewer voucher transactions equates to a smaller amount of IFF revenue generated.

Our review showed that IFF revenue shortfalls would most likely continue to impact E-Gov Travel
funding in the upcoming fiscal years. Per the E-Gov Travel Initiative business case as of September
2005, the PMO requested more than $3 million over the original baseline for FY06 to help maintain
the government employee and contractor support levels required to manage delays in deployment.
Although the PMO is taking steps to mitigate the funding risk, the PMO needs to verify the
reasonableness of IFF revenue estimations for FY07 and beyond, reassess the projected timeframe
for self-sufficiency, and notify the appropriate officials that contingencies must be established since
additional funding needs are probable.

Schedule

The PMO has faced challenges in supporting agencies to accomplish established milestones and
timeframes. Agencies have experienced significant deployment schedule slippage, with at least eight
of the 24 BRM agencies anticipating going beyond the FTR-mandated deadline for full deployment.
Based on our review of the issue tracking log maintained and resolutions documented by the PMO, it
appears that the PMO effectively managed the majority of the issues included on the log. Our review
and analysis of customer agency issues tracked by the PMO disclosed six cases in which we question
the PMO’s effectiveness in managing and resolving these issues. Some of these issues surfaced
between February and June 2005 and remain outstanding as of October 2005. This prolonged period
of time has had an adverse impact on agencies’ ability to remain on schedule. It is our opinion that
the PMO should have exercised a more aggressive approach in obtaining a resolution.

One of the six issues pertains to disagreement over whether the ETS vendor or the agency is
responsible for funding a particular functionality that part of the agency, which comprises 75% of the



                                                   3
agency’s total travel, requires for full deployment. Per our discussion with the ETS Contracting
Officer, although the requirement is unique and the ETS Master Contract states that an agency is
responsible for paying for any requirement exceeding the minimum mandatory requirements outlined
in the contract, the agency disagrees with this position. The PMO has been unsuccessful in
facilitating a resolution to this issue that has been open since February 2005. As this issue may have
an unfavorable impact on the timely deployment of ETS, we question the effectiveness of the PMO in
managing this issue to a successful resolution. Furthermore, as per the PMO, an updated
Memorandum of Understanding is required from an agency when material changes occur to the
project schedule. In this case, an updated MOU was not submitted by the agency or requested by the
PMO. See Appendix B-1 for detail on the other five issues. Working proactively as a liaison between
the ETS vendor and customer agency may lead to timelier resolutions.

We found shortcomings in the PMO’s methodology to estimate and substantiate deployment
timeframes, possibly affecting the accuracy of key business decisions. We recognize that various
factors contributed to individual agency deployment schedule slippage to include, to a certain extent,
an aggressive project schedule that did not allow sufficient time for the effort required to implement a
government-wide program of this magnitude. Some of the factors include:
    • Several agencies experienced delays in awarding ETS task orders – almost half of the 24
        BRM agencies awarded task orders at least three months past their planned award dates.
    • Interface development issues posed a major challenge impacting deployment schedules. At
        least eight agencies experienced interface issues that delayed their original deployment dates.
    • Many agencies wanted to upgrade their existing financial systems before starting ETS
        integration, thereby impacting ETS deployment start and completion dates. Instability in these
        new financial systems or accommodating new capabilities into the financial systems further
        attributed to deployment delays.
    • Two ETS vendors are collectively handling 65% of the estimated annual travel vouchers
        processed for BRM agencies. One vendor postponed the release of a new ETS version,
        causing delays in subsequent agency user acceptance testing and impacting deployment
        schedules. The other vendor had severe contract and task order performance deficiencies,
        causing substantial deployment slippage across all its customers.

Although some of these challenges were unforeseeable or out of the PMO’s control, we concluded
that better planning and guidance of individual agency migration task and overall deployment
timeframes may have helped to mitigate the impact of some delays to the deployment schedule.
Each agency developed a project schedule and migration plan for the PMO to review and approve.
One customer in our sample expressed concerns over the migration plan guidance provided by the
PMO, stating that the agency made uneducated guesses in estimating migration task and deployment
timeframes. Additionally, in a customer survey conducted by the PMO, two agencies commented that
more guidance was needed from the PMO in estimating timeframes and the level of effort required for
critical migration tasks.

In our opinion, the PMO review and approval process should include a method to verify that the time
allotted for migration tasks and the overall deployment schedule is realistic and achievable.
Inadequate planning of deployment timeframes has an effect on the accuracy of decisions such as
agency voucher commitment levels, IFF revenue projections, and PMO funding and staffing levels.
Lastly, our review revealed that a formal method for agencies to provide feedback about their
satisfaction with the PMO support has not been implemented, possibly limiting the PMO’s awareness
of areas needing improvement.




                                                  4
Performance

The E-Gov Travel Initiative did not meet five of eight performance measures which have a direct
adverse impact on meeting the President Management Agenda goal of reducing the costs of travel
management and improving operating efficiencies. The five performance measures are discussed
below:
    • As mandated by the FTR, all 24 BRM agencies were required to issue an ETS task order by
       December 31, 2004. Five agencies did not issue a task order by the FTR deadline.
       Subsequent to the FTR date, four of the five agencies have issued a task order in FY05. One
       agency remains unsigned.
    • The initiative did not meet its FY05 target of 15 BRM agencies using ETS. Eight of the 15
       agencies did not start processing travel through the E-Gov Travel system during FY05.
    • The initiative did not meet its FY05 target of 15 BRM agencies establishing interface
       agreements. Ten of the 15 agencies did not establish interface agreements during FY05.
    • The initiative did not meet its 11.94% target of vouchers serviced through ETS. Recognizing
       that seven agencies were not processing their expected level of vouchers through the ETS
       and eight agencies were not using ETS as planned during FY05, the PMO significantly
       reduced and achieved their revised target.
    • The initiative did not meet the target of an average user survey score of 4 in regards to
       customer satisfaction with ETS. A score of 4 on the 1 to 5 scale is equivalent to an 80 on a 1
       to 100 ASCI scale applied on the user survey. One vendor achieved an average score of 37,
       one an average score of 31, and the third did not receive a score because of insufficient
       survey responses. The PMO informed us that this measure was suspended for FY05
       because of challenges in implementing an effective survey tool.

For the E-Gov Travel Initiative to fully realize the cost savings associated with a fully deployed ETS
and enable the PMO to progress toward being self-funded, performance measures must be met.

Recommendations

We recommend that the Acting Commissioner of the Federal Supply Service:

   1. Develop realistic IFF revenue estimates with a contingency plan to address revenue shortfalls.
   2. Identify opportunities for more proactive PMO involvement in issue resolution to minimize
      deployment slippage.
   3. Create more customized guidance to help agencies develop reasonable deployment and
      migration task timeframes and develop a formal methodology to verify that these timeframes
      are achievable.
   4. When an agency’s risk of deployment slippage is determined to be high, an updated MOU
      should be completed by the agency allowing the PMO to make the necessary adjustments in
      their planning and budgeting decisions.
   5. Implement a formal customer feedback mechanism to solicit information regarding customer
      satisfaction with PMO support.

Management Comments

Management generally concurs with the recommendations. See Appendix C for management’s
detailed response.




                                                    5
Internal Controls

As discussed in the Objectives, Scope, and Methodology section of this report, our audit objective
focused on determining the effectiveness of the E-Gov Travel Program Management Office. Our audit
did not include a review of internal controls.

We wish to thank you and your staff for the courtesies extended to the auditors during this review.
Should you or your staff have any questions concerning this review, please contact me at (703) 603-
0189.




CAROLYN PRESLEY-DOSS
Audit Manager
Acquisition Programs Audit Office (JA-A)




                                                 6
APPENDICES
                 REVIEW OF THE EFFECTIVENESS OF THE
           GSA E-GOV TRAVEL PROGRAM MANAGEMENT OFFICE
                  REPORT NUMBER A050178/F/A/V06002


                  Business Reference Model (BRM) Agencies


                            BRM Agency                                ETS Vendor
                                                                       Selected
    1    Department of State                                            CWGT
    2    U.S. Agency for International Development                      CWGT
    3    Department of Labor                                            CWGT
    4    Department of Interior                                         CWGT
    5    General Services Administration                                CWGT
    6    Department of Education1                                       CWGT
    7    Small Business Administration2                                 CWGT
    8    Nuclear Regulatory Commission2                                 CWGT
    9    Office of Personnel Management2                                CWGT
    10   National Science Foundation                                     EDS
    11   Department of Housing and Urban Development                     EDS
    12   Veterans Administration                                         EDS
    13   Department of Homeland Security                                 EDS
    14   National Aeronautics and Space Administration                   EDS
    15   Department of Commerce                                          EDS
    16   Department of Justice                                           EDS
    17   Department of Agriculture                                       EDS
    18   Department of the Treasury                                     NGMS
    19   Department of Transportation                                   NGMS
    20   Department of Health and Human Services                        NGMS
    21   Environmental Protection Agency                                NGMS
    22   Department of Energy                                           NGMS
    23   National Archives and Records Administration2                  NGMS
    24   Social Security Administration3                                 N/A
     Source: Data obtained from E-Gov Travel Program Management Office website as of July 2005
1
  Per task order data on E-Gov Travel Program Management Office website as of November 2005,
  Department of Education has awarded an ETS vendor.
2
  Service provided by a cross-servicing agency.
3
  Per task order data on E-Gov Travel Program Management Office website as of November 2005,
  Social Security Administration has not issued a task order for an ETS vendor.




                                           A-1
                           REVIEW OF THE EFFECTIVENESS OF THE
                     GSA E-GOV TRAVEL PROGRAM MANAGEMENT OFFICE
                            REPORT NUMBER A050178/F/A/V06002


                Critical Issues Identified by OIG from PMO’s Issue Tracking Log

                                                                                             Submission
                                     Issue Description                                      Date on Issue
                                                                                            Tracking Log
    Multiple agencies have raised an issue concerning the ability to book round trip
    airfares via one vendor’s online booking engine. Roundtrip airfare functionality is a
1   contractual requirement for the booking engine. Agencies have stated that ETS            March 2005
    implementation is contingent upon improvements to the online booking engine that
    include resolution to the round trip fare issue.
    One agency has experienced routing status and interface capability problems with
    their ETS vendor’s system. Specifically, the interface was not handling return to
2   sender documents as specified in the agency’s task order. The agency had                  May 2005
    indicated that deployment would be delayed until at least FY 2006. As of October
    2005, the PMO was determining if a new system release had corrected the issue.
    Development and delivery of unique travel functionality for one agency has been
    delayed, adversely impacting the development of their financial system interface
3   as well. The ETS vendor has slipped delivery dates on several occasions. This             May 2005
    delay has affected deployment dates for several divisions within the agency, with
    full deployment going beyond the September 2006 FTR deadline.
    Lack of availability of city-pair airfares in the online booking engine impacted all
    customers of one ETS vendor. Although an update to the booking engine was
    expected to resolve the issue, a review of the online booking engine patch in
4                                                                                             May 2005
    September 2005 revealed that the issue had not been resolved. Agencies have
    stated that ETS implementation is contingent upon improvements to the online
    booking engine that include resolution to the city-pair airfare issue.
    One agency has experienced unsatisfactory performance of their ETS vendor’s
    Travel Management Center (TMC) services, causing deployment to slip. The
    agency issued two letters of concern requesting that the ETS vendor correct this
5                                                                                            June 2005
    issue. Travelers within that agency have continued to experience incorrect billing
    of ticket prices and fees, ticket issuance problems, and unsatisfactory customer
    service.




                                                  B-1
      REVIEW OF THE EFFECTIVENESS OF THE
GSA E-GOV TRAVEL PROGRAM MANAGEMENT OFFICE
       REPORT NUMBER A050178/F/A/V06002

       FSS’ Response to the Draft Report




                      C-1
      REVIEW OF THE EFFECTIVENESS OF THE
GSA E-GOV TRAVEL PROGRAM MANAGEMENT OFFICE
       REPORT NUMBER A050178/F/A/V06002

       FSS’ Response to the Draft Report




                      C-2
      REVIEW OF THE EFFECTIVENESS OF THE
GSA E-GOV TRAVEL PROGRAM MANAGEMENT OFFICE
       REPORT NUMBER A050178/F/A/V06002

       FSS’ Response to the Draft Report




                      C-3
      REVIEW OF THE EFFECTIVENESS OF THE
GSA E-GOV TRAVEL PROGRAM MANAGEMENT OFFICE
       REPORT NUMBER A050178/F/A/V06002

       FSS’ Response to the Draft Report




                      C-4
      REVIEW OF THE EFFECTIVENESS OF THE
GSA E-GOV TRAVEL PROGRAM MANAGEMENT OFFICE
       REPORT NUMBER A050178/F/A/V06002

        FSS’ Response to the Draft Report




                      C-5
                                REVIEW OF THE EFFECTIVENESS OF THE
                          GSA E-GOV TRAVEL PROGRAM MANAGEMENT OFFICE
                                 REPORT NUMBER A050178/F/A/V06002

                                                    Report Distribution


                                                                                                              Copies

Acting Commissioner, Federal Supply Service (F)............................................................3

Audit Follow-up and Evaluation Branch (BECA) ...............................................................1

Assistant Inspector General for Auditing (JA, JAO) ..........................................................2

Assistant Inspector General for Investigations (JI) ...........................................................1

Office of the Chief Financial Officer (B) ............................................................................2




                                                                D-1
